,,~ ~
( t:
'..
  ~..

    ~lt""JO
 ~'~4'''VIC'S.''S.
                          DEPARTMENT OF
                         DEPARTMENT  OFHEALTH
                                        HEALTH &.
                                               &.HUMAN
                                                  HUMANSERVICES
                                                        SERVICES                                                          Office
                                                                                                                           OfficeofofInspector

                                                                                                                          Washington,
                                                                                                                                      InspectorGeneral


                                                                                                                          Washington, D.C.
                                                                                                                                               General


                                                                                                                                       D.C. 20201
                                                                                                                                             20201





                                                                           FEB -3
                                                                          FEB      2009
                                                                               -3 2009


                     TO:
                     TO:       Charlene   Frizzera
                                    Charlene Frizzera
                                         Acting Admini$trator
                                         Acting Administrator
                                         Centers forfOr~iCaid
                                         cen~                       Servces

                                                     Medicare & Me icaid Services


                     FROM:
                     FROM:         ~:E. ffE
                                      ~hE. Vengn

                                 ~:;~ty      Inspector
                                  ~:;~ty Inspector     General
                                                   General  forforAudit
                                                                   AuditServices

                                                                         Services


                     SUBJECT:
                     SUBJECT: Review of 
                   Emergency Health
                                          Review of Emergency                  Health Services at Orlando
                                                                                                   Orlando Regional
                                                                                                            Regional Healthcare
                                                                                                                     Healthcare Furnished
                                                                                                                                Furnished
                                          to  Undocumented
                                          to Undocumented Aliens CoveredAliens
                                                                         by SectionCovered
                                                                                   1011 of
 by Section 1011 ofthe  Medicare Prescription
                                                                                                               the Medicare Prescription
                                          Drug, Improvement,
                                          Drug,     Improvement, and        and Modernization
                                                                                   Modernization Act
                                                                                                  Act of
                                                                                                      of2003
                                                                                                         2003 (A-04-07-07030)


                     Attached is
                     Attached       is an   advance copy
                                        an advance         copy of of our
                                                                        our final   report on
                                                                              final report on emergency
                                                                                              emergency health
                                                                                                          health services
                                                                                                                    services at
                                                                                                                              at Orlando
                                                                                                                                 Orlando
                     Regional Healthcare System, Inc. (ORR), furnished to undocumented aliens covered by
                     Regional       Healthcare         System,       Inc.   (ORR),    fuished to undocumented        aliens covered  by section
                                                                                                                                         section
                     1011 of the Medicare Prescription Drug, Improvement, andModernization
                     1011 ofthe Medicare Prescription Drug, Improvement, and

                                                                                                      Modernzation Act of 
 Act of2003
                                                                                                                                  2003 (MMA).
                     We will
                     We    will issue
                                  issue this
                                           this report
                                                  report to  to ORR
                                                                 ORR within
                                                                          within 55 business
                                                                                     business days.
                                                                                               days.

                     Section 1011 of the MMA, "Federal Reimbursement of Emergency Health
                     Section 1011 ofthe MMA, "Federal Reimbursement of 

                                                                                                                 Health Services
                                                                                                                          ServicesFurnished
                                                                                                                                   Furished to     to
                     Undocumented             Aliens"       (section     1011),  provided  $250   milion  per
                     Undocumented Aliens" (section 1011), provided $250 million per year for fiscal years 2005year  for fiscal years 2005
                     through
                     through 2008 2008 for for payments
                                                 payments to     to eligible
                                                                      eligible providers
                                                                               providers for
                                                                                          for emergency
                                                                                              emergency health
                                                                                                           health services
                                                                                                                   services provided
                                                                                                                             provided toto
                     undocumented
                     undocumented aliens and other specified aliens pursuant to Emergency Medical Treatment and
                                             aliens     and   other     specified aliens pursuant   to Emergency     Medical   Treatment     and
                     Labor
                     Labor Act  Act (EMT
                                      (EMTALA)  ALA) requirements.
                                                           requirements. Under Under EMT    ALA, aa Medicare-paricipating
                                                                                       EMTALA,        Medicare-participatinghospital
                                                                                                                                 hospital isis to
                                                                                                                                                to
                     provide      an  appropriate         medical      screening   examination   to any person,   regardless
                     provide an appropriate medical screening examination to any person, regardless of ability to pay,        of ability to   pay,
                     who
                     who comes
                             comes to       the hospital
                                        to the    hospital emergency
                                                                emergencydepartment
                                                                                deparent totodetermine
                                                                                               determinewhether
                                                                                                           whetheran anemergency
                                                                                                                         emergency medical
                                                                                                                                     medical
                     condition
                     condition (EMC) (EMC) exists.exists. IfIfthetheexamination
                                                                       examinationreveals
                                                                                      revealsan
                                                                                              anEMC,
                                                                                                  EMC,thethehospital
                                                                                                             hospital must
                                                                                                                       must also
                                                                                                                             also provide
                                                                                                                                  provide
                     either
                     either treatment
                               treatment necessar
                                               necessaryto      to stabilize
                                                                    stabilizethe
                                                                               theEMC
                                                                                   EMCororananappropriate
                                                                                                appropriatetransfer
                                                                                                              transferto
                                                                                                                       to another
                                                                                                                           another medical
                                                                                                                                   medical
                     facility.
                     facility.

                     We
                      We selected    for review
                           selected for   review ajudgrnental
                                                  ajudgrental sample
                                                               sampleof30
                                                                      of30claims
                                                                            claimstotaling
                                                                                   totaling$27,395
                                                                                             $27,395that
                                                                                                      thatORR
                                                                                                          ORRsubmitted
                                                                                                                submitted
                     for
                      for payment for the period May 10 through September 30,2005. In total, ORR received$89,114
                          payment   for  the period  May 10  through September  30,2005.   In total, ORR  received $89,114
                     for
                      for 87
                          87 claims
                              claimsfor
                                      forthat
                                           thatperiod.
                                               period.

                     Our
                      Ourobjective
                           objective was
                                      was toto determine
                                               determine whether
                                                            whetherclaims
                                                                     claims submitted
                                                                             submittedby byORR
                                                                                             ORRfor
                                                                                                  forservices
                                                                                                       servicesprovided
                                                                                                                providedunder
                                                                                                                         under
                     section
                      section 1011
                               1011 for
                                     for the
                                          the period
                                              period May
                                                      May 10 10 through
                                                                through September
                                                                         September 30,2005,
                                                                                      30,2005,were
                                                                                                weresubmitted
                                                                                                       submittedonon behalf
                                                                                                                      behalfof
                                                                                                                            of
                     individuals  who   met   eligibility requirements,  were   for eligible services,  and were  adequately
                      individuals who met eligibility requirements, were for eligible services, and were adequately
                     supported
                      supportedand
                                 andnot
                                      notreimbursed
                                            reimbursedfromfromother
                                                                othersources
                                                                      sourcesasasrequired
                                                                                  requir~dbybyFederal
                                                                                               Federalregulations.
                                                                                                         regulations.
Page 2 – Charlene Frizzera


Of the 30 sampled claims, 13 claims totaling $8,556 met section 1011 requirements and were
eligible for section 1011 program reimbursement. The 17 remaining claims totaling $18,839
were either partially or completely unallowable for section 1011 program reimbursement. As a
result, ORH received $16,568 in unallowable payments. The unallowable payments occurred
because ORH did not always follow its own policies and procedures for ensuring that services
were provided up to the point of patient stabilization, medical records contained sufficient
documentation to support eligibility determinations and the services provided, and treatments
were for EMCs. Furthermore, ORH written policies and procedures did not address section 1011
requirements regarding reimbursements from third-party payers.

We recommend that ORH:

   •   refund to TrailBlazer $16,568 received for services that did not meet section 1011
       reimbursement requirements;

   •   review the 57 remaining claims for our audit period, totaling $61,719, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that reimbursements for services are made
       to the extent that a third-party payer did not otherwise reimburse care.

In written comments on our draft report, ORH agreed with our recommendations and described
its plan of action.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750
or through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-07030.


Attachment
                                   DEPARTMENTOF
                                   DEPARTMENT OFHEALTH
                                                HEALTHAND
                                                       ANDHUMAN
                                                           HUMANSERVICES
                                                                 SERVICESOffceOffice
                                                                               oflnspector     General
                                                                                     of Inspector General
  ~ SE.RVICES



~ .ø
                                                                                                                              Offce
                                                                                                                              Officeof
                                                                                                                                     ofAudit
                                                                                                                                       AuditServices
                                                                                                                                             Services
..~,,+. ~
                                                                                                                                    REGION IV
                                                                                                                                           IV
t ~
""'~"'~~
                                                                                                                      61
                                                                                                                      61 Forsyth
                                                                                                                                   REGION

                                                                                                                         Forsyth Street,
                                                                                                                                 Street, S.W.,
                                                                                                                            Atlanta,
                                                                                                                                         S.W., Suite
                                                                                                                            Atlanta, Georgia
                                                                                                                                               Suite3T41
                                                                                                                                     Georgia30303
                                                                                                                                             30303
                                                                                                                                                     3T41


                                                                 FEB -9
                                                                 FEB -9 2009

                                                                         2009

                       Number: A-04-07-07030
                Report Number: A-04-07-07030

                               Walters
                Ms. Bridget B. Walters
                Corporate Billing/Governmental
                Corporate                       Manager
                           Biling/Governental Manager
                                             System, Inc.
                Orlando Regional Healthcare System,  Inc.
                dba Orlando Regional  Healthcare
                dba Orlando Regional Healthcare

                3090  Carso Court
                3090 Caruso  Cour
                Orlando, Florida 32806
                                 32806

                         Walters:
                Dear Ms. Walters:

                Enclosed is the U.S. Department of Health
                Enclosed is the U.S. Deparent of                           Health      andServices
                                                                                 and Human  Human  (RRS),Services
                                                                                                          Office of
 (HHS), Office of Inspector
                General
                General (OIG),(OIG),      final
                               final report       report
                                            entitled  "Review entitled
                                                              of 
        "Review of        Emergency          Health  Services at Orlando Regional
                Healthcare
                Healthcare FurishedFurnished
                                    to Undocumented to   Undocumented
                                                     Aliens                       Aliens
                                                            Covered by Section 1011 of      Covered by Section 1011 of the Medicare
                Prescription Drug, Improvement, and ModernzationAct
                Prescription        Drug,      Improvement,            and    Modernization           Actof2003."
                                                                                                             of2003." We will     forward a copy of
                                                                                                                             wil forward
                this report to the HHS      HHS action official offcial notednoted on  on the
                                                                                           the following
                                                                                                following page   page for
                                                                                                                      for review
                                                                                                                          review and any action
                deemed necessary.

                The HHSHHS action official  offcial wil willmake
                                                               makefinal finaldetermination
                                                                                 determinationas asto
                                                                                                    toactions
                                                                                                       actionstaken
                                                                                                               taken on
                                                                                                                     on all
                                                                                                                        all matters
                                                                                                                            matters reported.
                                                                                                                                     reported.
                We    request
                We request that youthat   you
                                    respond      respond
                                            to this            to this
                                                    offcial within 30 daysofficial    within
                                                                           from the date of                            this letter.
                                                                                             30 days from the date of this letter.  Your
                response should present any comments or additional information that you believe may have a
                bearing on
                bearng  on the final determination.
                                     determination.

                Pursuant
                Pursuant to theto  the principles
                                principles of        of the     Freedom
                                                          the Freedom of 
      Information Act,
                                                                            of Information  Act,S5 U.S.C.
                                                                                                   U.S.c. §§ 552,
                                                                                                             552, as
                                                                                                                  as amended by
                Public Law 104-231, OIG reports generally are made available to the public to the extent the
                information
                information is      is not
                                        not subject
                                              subject to
                                                       to exemptions
                                                           exemptions in   in the
                                                                               theAct
                                                                                   Act(45
                                                                                       (45CFR
                                                                                          CFRpartpar 5). Accordingly, this report
                                                                                                     5). Accordingly,
                will be posted oh      on the Internet at http://oig.hhs.gov.

                If you have any questions or comments about this report, please do not hesitate to call me, or
                contact Andrew A.
                                A. Funtal, Audit Manager, at (404) 562-7762 or through e-mail at
                Andrew.Funtiil@oig.hhs.gov.    Pleaserefer
                Andrew.Funtal(foig.hhs.gov. Please    refer to
                                                             to report
                                                                 report number
                                                                        number A-04-07-07030
                                                                               A-04-07-07030 in all
                correspondence.

                                                                             Sincerely,

                                                                             CP~;,ó1~
                                                                                   J. Barbera
                                                                             Peter J.
                                                                             Regional Inspector General
                                                                             Regional
                                                                              for Audit
                                                                              for Audit Services


                Enclosure
                Enclosure
Page 2 – Ms. Bridget B. Walters


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




   REVIEW OF EMERGENCY 

HEALTH SERVICES AT ORLANDO 

   REGIONAL HEALTHCARE 

FURNISHED TO UNDOCUMENTED 

    ALIENS COVERED BY 

    SECTION 1011 OF THE 

MEDICARE PRESCRIPTION DRUG,

     IMPROVEMENT, AND 

 MODERNIZATION ACT OF 2003




                    Daniel R. Levinson

                     Inspector General 


                      February 2009

                      A-04-07-07030

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Sections 1866(a)(1)(I), 1866(a)(1)(N), and 1867 of the Social Security Act impose specific
obligations on Medicare-participating hospitals that offer emergency services. Section 1867 is
frequently referred to as the Emergency Medical Treatment and Labor Act (EMTALA).
Congress enacted EMTALA in 1986 because of its concerns with an increasing number of
reports that hospital emergency rooms were refusing to accept or treat individuals with
emergency conditions if the individuals did not have insurance. Under EMTALA, a Medicare-
participating hospital is to provide an appropriate medical screening examination to any person,
regardless of ability to pay, who comes to the hospital emergency department “to determine
whether or not an emergency medical condition [(EMC)] . . . exists” (section 1867(a)). If the
examination reveals an EMC, the hospital must also provide either treatment necessary to
stabilize the EMC or an appropriate transfer to another medical facility.

In 2003, Congress enacted the Medicare Prescription Drug, Improvement, and Modernization
Act of 2003, P.L. No. 108-173 (MMA). Section 1011 of the MMA, “Federal Reimbursement of
Emergency Health Services Furnished to Undocumented Aliens” (section 1011), provided
$250 million per year for fiscal years 2005 through 2008 for payments to eligible providers for
emergency health services provided to undocumented aliens and other specified aliens pursuant
to EMTALA requirements.

Orlando Regional Healthcare System, Inc. (ORH), is a Medicare-participating network of health
care facilities that also participates in the section 1011 program. With the assistance of the
designated section 1011 program contractor, TrailBlazer Health Enterprises, LLC (TrailBlazer),
we reviewed 30 judgmentally selected claims totaling $27,395 that ORH submitted for payment
for the period May 10 through September 30, 2005. In total, ORH received $89,114 for 87
claims for that period.

OBJECTIVE

Our objective was to determine whether claims submitted by ORH for services provided under
section 1011 for the period May 10 through September 30, 2005, were submitted on behalf of
individuals who met eligibility requirements, were for eligible services, and were adequately
supported and not reimbursed from other sources as required by Federal regulations.

SUMMARY OF FINDINGS

From a sample of 30 ORH claims totaling $27,395, we found that 17 claims totaling $18,839 were
either partially or completely unallowable for section 1011 program reimbursement. As a result,
ORH received $16,568 in unallowable payments. The 17 claims did not meet section 1011
reimbursement requirements because:

   •   Four claims totaling $5,581 were for services provided beyond the point of patient
       stabilization.



                                                i
   •   Three claims totaling $5,014 did not have sufficient documentation to support the
       patient’s eligibility determination.

   •   Seven claims totaling $3,962 did not contain sufficient documentation in the medical
       records to support the services provided.

   •   One claim totaling $1,922 was reimbursed by the section 1011 program after a third-party
       payment.

   •   Two claims totaling $89 were for non-EMCs beyond initial screening by the hospital or
       for services that should have been excluded as having been for nonemergent conditions.

The 13 remaining claims totaling $8,556 met section 1011 requirements and were eligible for
section 1011 program reimbursement.

Although ORH had written policies and procedures that, if followed, might have precluded some
of the errors identified, ORH did not always follow its own policies and procedures for ensuring
that services were provided pursuant to section 1011 reimbursement requirements. Furthermore,
ORH written policies and procedures did not address section 1011 requirements regarding
reimbursements from third-party payers.

RECOMMENDATIONS

We recommend that ORH:

   •   refund to TrailBlazer $16,568 received for services that did not meet section 1011
       reimbursement requirements;

   •   review the 57 remaining claims for our audit period, totaling $61,719, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that reimbursements for services are made
       to the extent that a third-party payer did not otherwise reimburse care.

ORLANDO REGIONAL HEALTHCARE COMMENTS

In written comments on our draft report, ORH agreed with our recommendations and described
its plan of action. ORH’s comments appear in their entirety as the Appendix.




                                               ii
                                                    TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION.............................................................................................................1

      BACKGROUND ........................................................................................................1
          Emergency Medical Treatment and Labor Act.................................................1
          Section 1011 of the Medicare Prescription Drug, Improvement, and
           Modernization Act of 2003 ...........................................................................1
          TrailBlazer Health Enterprises..........................................................................2
          Orlando Regional Healthcare............................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................2
          Objective ...........................................................................................................2
          Scope.................................................................................................................2
          Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ...................................................................3

      FEDERAL REQUIREMENTS...................................................................................4

      UNMET FEDERAL REQUIREMENTS ...................................................................5

      ORLANDO REGIONAL HEALTHCARE POLICIES AND PROCEDURES.........6

      RECOMMENDATIONS............................................................................................7

      ORLANDO REGIONAL HEALTHCARE COMMENTS.…………………………7

APPENDIX

     ORLANDO REGIONAL HEALTHCARE COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Emergency Medical Treatment and Labor Act

Sections 1866(a)(1)(I), 1866(a)(1)(N), and 1867 of the Social Security Act 1 (the Act) impose
specific obligations on Medicare-participating hospitals that offer emergency services. Section
1867 is frequently referred to as the Emergency Medical Treatment and Labor Act (EMTALA).
Congress enacted EMTALA in 1986 because of its concerns with an increasing number of
reports that hospital emergency rooms were refusing to accept or treat individuals with
emergency conditions if the individuals did not have insurance. Under EMTALA, a Medicare-
participating hospital is to provide an appropriate medical screening examination to any person,
regardless of ability to pay, who comes to the hospital emergency department “to determine
whether or not an emergency medical condition [(EMC)] . . . exists” (section 1867(a)). If the
examination reveals an EMC, the hospital must also provide either treatment necessary to
stabilize the medical condition or an appropriate transfer to another medical facility.

Section 1011 of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003

In 2003, Congress enacted the Medicare Prescription Drug, Improvement, and Modernization
Act of 2003 (P.L. No. 108-173) 2 (MMA). Section 1011 of the MMA, “Federal Reimbursement
of Emergency Health Services Furnished to Undocumented Aliens” (section 1011), provided
$250 million per year for fiscal years (FY) 2005 through 2008 for payments to eligible providers
for emergency health services provided to undocumented aliens and other specified aliens. Two-
thirds of the funds was divided among all 50 States and the District of Columbia based on their
relative percentages of undocumented aliens. One-third was divided among the six States with
the largest number of undocumented alien apprehensions for each FY. 3 From the respective
State allotments, payments were made directly to hospitals, certain physicians, and ambulance
providers using Medicare payment rules to calculate the payment amount for some or all of the
costs of providing eligible individuals with emergency health care required under section 1867 of
the Act and related hospital inpatient, outpatient, and ambulance services.

Payments could be made for services furnished to certain individuals described in the MMA as
(1) undocumented aliens, (2) aliens who have been paroled into the United States at a U.S. port
of entry for the purpose of receiving eligible services, and (3) Mexican citizens permitted to enter


1
    42 U.S.C. §§ 1866(a)(1)(I), 1866(a)(1)(N), and 1867.
2
    The Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
3
 The numbers of undocumented alien apprehensions were determined using the four consecutive quarters ending
before the beginning of the FY for which information is available. For FY 2005, the numbers from the period
April 1, 2003, to March 31, 2004, were used. During that period, data from the Department of Homeland Security
indicated that the six States with the largest number of undocumented alien apprehensions were Arizona, California,
Florida, New Mexico, New York, and Texas.


                                                           1
the United States for not more than 72 hours under the authority of a biometric, machine-
readable, border-crossing identification card (also referred to as a “laser visa”).

TrailBlazer Health Enterprises

The Centers for Medicare & Medicaid Services (CMS), which administers the Medicare
program, designated TrailBlazer Health Enterprises, LLC (TrailBlazer), as the national
processing and compliance contractor for the section 1011 program. TrailBlazer enrolls eligible
providers, assists with enrollment and billing questions, and calculates provider payment
amounts. In addition, TrailBlazer conducts prepayment or postpayment claim reviews, identifies
and assesses overpayments if necessary, and ensures compliance with section 1011.

Orlando Regional Healthcare

Orlando Regional Healthcare System, Inc. (ORH), is a Medicare-participating network of health
care facilities that also participates in the section 1011 program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether claims submitted by ORH for services provided under
section 1011 for the period May 10 through September 30, 2005, were submitted on behalf of
individuals who met eligibility requirements, were for eligible services, and were adequately
supported and not reimbursed from other sources as required by Federal regulations.

Scope

Our review covered services provided during the period May 10 through September 30, 2005.
For this period, ORH received section 1011 program payments of $89,114 for 87 claims.

We limited our review of internal controls to obtaining an understanding of the procedures for
implementing the section 1011 program.

We conducted fieldwork at TrailBlazer in Dallas, Texas, and at ORH in Orlando, Florida.

Methodology

To accomplish our objective, we:

    •   met with and maintained ongoing communications with TrailBlazer officials;

    •   reviewed applicable laws, regulations, and CMS guidelines regarding the section 1011
        program;




                                                2
    •   obtained and reviewed a listing of all emergency health claims submitted, approved, and
        paid under the section 1011 program during the audit period;

    •   obtained and reviewed a listing of all approved section 1011 program providers;

    •   selected for review a judgmental sample of 30 section 1011 program claims submitted by
        ORH;

    •   interviewed ORH officials to obtain an understanding of the policies, procedures, and
        controls relating to the section 1011 program;

    •   obtained and reviewed the medical records and other documentation associated with the
        selected claims;

    •   requested TrailBlazer to perform a review of the medical and nonmedical documentation
        associated with the selected claims to determine whether:

            o claims were made on behalf of individuals who met eligibility criteria,

            o claims were for services that met the definition of emergency health services,

            o claims were for services provided during the patient’s stabilization period,

            o claims were made for properly supported services, and

            o providers exercised due diligence in ensuring that section 1011 program
              payments were the payments of last resort; and

    •   requested that TrailBlazer quantify any overpayments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

From a sample of 30 ORH claims totaling $27,395, we found that 17 claims totaling $18,839 were
either partially or completely unallowable for section 1011 program reimbursement. As a result,
ORH received $16,568 in unallowable payments. The 17 claims did not meet section 1011
program reimbursement requirements because:

   •    Four claims totaling $5,581 were for services provided beyond the point of patient
        stabilization.



                                                3
   •       Three claims totaling $5,014 did not have sufficient documentation to support the
           patient’s eligibility determination.

   •       Seven claims totaling $3,962 did not contain sufficient documentation in the medical
           records to support the services provided.

   •       One claim totaling $1,922 was reimbursed by the section 1011 program after a third-party
           payment.

   •       Two claims totaling $89 were for non-EMCs beyond initial screening by the hospital or
           for services that should have been excluded as having been for nonemergent conditions.

The 13 remaining claims totaling $8,556 met section 1011 requirements and were eligible for
section 1011 program reimbursement.

Although ORH had written policies and procedures that, if followed, might have precluded some
of the errors identified, ORH did not always follow its own policies and procedures for ensuring
that emergency medical services were provided pursuant to section 1011 reimbursement
requirements. Furthermore, ORH written policies and procedures did not address section 1011
requirements regarding reimbursements from third-party payers.

FEDERAL REQUIREMENTS

Section 1011 sets forth the requirements governing Federal reimbursement of emergency health
services furnished to undocumented aliens. CMS issued as additional guidance a final
implementation notice delineating CMS’s section 1011 program implementation approach,
general framework, procedural rules, and general statements of policy. In addition, 42 CFR
§ 482.24(b) and (c) establishes medical record requirements for hospitals. The requirements for
each finding follow:

    • Point of Stabilization—Section VI of CMS’s final implementation notice (70 Fed. Reg.
      25,583 (May 13, 2005)) states that section 1011 program payments will be made for
      eligible services that begin when an individual arrives at the hospital emergency
      department and requests examination or treatment for a medical condition. If the
      hospital determines that the individual has an EMC, the hospital must either provide
      stabilizing treatment or transfer the individual. To be considered stable, a patient’s EMC
      must be resolved, even though the underlying medical condition may persist.

       •    Adequate Eligibility Documentation—Section IX of CMS’s final implementation
            notice (70 Fed. Reg. 25,587 (May 13, 2005)) states that because section 1011 program
            payments are authorized only for the three categories of noncitizens specified in section
            1011(c)(5), providers are required to request, collect, and maintain information about
            the patient’s eligibility. Although providers are not required to use the information
            collection instrument designed by CMS, they must collect and maintain all of the
            information contained in the approved information collection instrument. If a patient



                                                   4
        refuses to or is unable to provide proof of eligibility, the provider should not submit an
        individual claim for the services delivered to that patient.

    •   Content of Medical Records—Hospitals must maintain a medical record for each
        inpatient and outpatient (42 CFR § 482.24(b)) to “. . . justify admission and continued
        hospitalization, support the diagnosis, and describe the patient’s progress and response
        to medications and services” (42 CFR § 482.24(c)). Records must document evidence
        of a physical examination, admitting diagnosis, results of all consultative evaluations of
        the patient, practitioners’ orders, nursing notes, discharge summary, and final diagnosis,
        among other information (42 CFR § 482.24(c)(2)).

    •   Third-Party Payer—Section 1011(c)(1) states that payments to providers will be made
        to the extent that care was not otherwise reimbursed for the services during that FY. In
        its final implementation notice, CMS states that allowing providers to seek
        reimbursement from all available funding sources is consistent with the statutory intent
        of section 1011 and limits section 1011 program reimbursement to those instances for
        which no other reimbursement is likely to be received.

    •   Eligible Services—Section 1011(c)(4) states that “[p]ayments made to eligible
        providers . . . may only be used for costs incurred in providing eligible services to
        aliens.” Paragraph (e)(2) of section 1011 defines eligible services as “health care
        services required by the application of section 1867 of the . . . Act . . . , and related
        hospital inpatient and outpatient services and ambulance services.” Eligible healthcare
        services are described in section 1867 as those provided to treat emergency medical
        conditions, which are defined as:

              (A) a medical condition manifesting itself by acute symptoms of sufficient
              severity (including severe pain) such that the absence of immediate
              medical attention could reasonably be expected to result in—(i) placing
              the health of the individual (or, with respect to a pregnant woman, the
              health of the woman or her unborn child) in serious jeopardy, (ii) serious
              impairment to bodily functions, or (iii) serious dysfunction of any bodily
              organ or part; or

              (B) with respect to a pregnant woman who is having contractions—(i) that
              there is inadequate time to effect a safe transfer to another hospital before
              delivery, or (ii) that transfer may pose a threat to the health or safety of the
              woman or the unborn child [section 1867(e)(1)].

UNMET FEDERAL REQUIREMENTS

ORH submitted 17 claims totaling $18,839 that were either partially or completely unallowable
for section 1011 program reimbursement. As a result, ORH received $16,568 in payments that
did not meet section 1011 program reimbursement requirements during our audit period:




                                                 5
   •   For four claims, ORH received section 1011 program funds for services provided after
       the patient was stabilized. For these four claims, we reviewed the patient’s entire medical
       record and found that ORH provided treatment and stabilized the patient’s EMC.
       However, ORH did not follow section VI of CMS’s final implementation notice because
       it submitted claims for the patient’s entire stay instead of submitting claims for only the
       services provided through stabilization. ORH staff stated that they did not have enough
       personnel to go over the medical record, determine the point of stabilization, and submit a
       claim for charges up to the point of stabilization. ORH received $5,581 in unallowable
       payments for these four claims.

   •   For three claims, the documentation provided did not support the patient’s eligibility
       determination. ORH contracted with vendors to screen individuals and collect supporting
       documentation as required by section 1011. However, for these three claims, ORH did
       not collect and maintain in the medical records all of the information required by the
       CMS-approved information collection instrument to support the patients’ eligibility
       determination. ORH received $5,014 in unallowable payments for these three claims.

   •   For seven claims, ORH submitted claims for services that did not have adequate
       supporting documentation, such as progress notes, doctor’s orders, emergency records,
       nursing notes, and discharge summaries, as required by 42 CFR § 482.24(b) and (c).
       ORH received $3,962 in unallowable payments for these seven claims.

   •   For one claim, ORH failed to inform TrailBlazer that ORH had received a $10,000
       payment from a third-party payer. ORH submitted a claim and received a section 1011
       program payment of $1,922 for the same claim. Because the third-party payer amount
       exceeded the section 1011 approved amount, we considered the third-party payer amount
       as payment in full. ORH received a $1,922 unallowable payment for this claim.

   •   For two claims, the treatments provided were not for an EMC. We determined that the
       treatments provided were nonemergency and therefore did not meet the definition of an
       EMC as required by section 1011. ORH submitted claims to the section 1011 program
       for two follow-up visits related to a previous EMC. The EMC was treated and the patient
       was sent home on June 3, 2005, with doctor’s instructions to come back for follow-up
       treatment. The patient came back to the emergency department on June 5 and 8, 2005,
       and received follow-up treatments. ORH received $89 in unallowable payments for these
       two claims.

ORLANDO REGIONAL HEALTHCARE POLICIES AND PROCEDURES

Although ORH had written policies and procedures that, if followed, might have precluded some
of the errors that TrailBlazer identified, ORH did not always follow its own policies and
procedures for ensuring that services were provided up to the point of stabilization, medical
records contained sufficient documentation to support eligibility determinations and the services
provided, and treatments were for EMCs.




                                                6
Furthermore, ORH written policies and procedures did not address section 1011 requirements
regarding reimbursements from third-party payers.

RECOMMENDATIONS

We recommend that ORH:

   •   refund to TrailBlazer $16,568 received for services that did not meet section 1011
       reimbursement requirements;

   •   review the 57 remaining claims for our audit period, totaling $61,719, and claims for
       subsequent periods and submit adjustments for any claims that did not meet section 1011
       reimbursement requirements;

   •   follow its existing policies and procedures to ensure that future section 1011 program
       claims meet section 1011 reimbursement requirements; and

   •   develop and implement procedures to ensure that reimbursements for services are made
       to the extent that a third-party payer did not otherwise reimburse care.

ORLANDO REGIONAL HEALTHCARE COMMENTS

In written comments on our draft report, ORH agreed with our recommendations and described
its plan of action. ORH’s comments appear in their entirety as the Appendix.




                                               7
APPENDIX
APPENDIX
